Board of Governors of the Federal Reserve System




        Material Loss Review of
              BankFirst




       Office of Inspector General



                                        February 2010
                                               February 19, 2010


The Honorable Daniel K. Tarullo
Chairman
Committee on Supervisory and Regulatory Affairs
Board of Governors of the Federal Reserve System
Washington, DC 20551

Dear Governor Tarullo:

      Consistent with the requirements of section 38(k) of the Federal Deposit Insurance Act
(FDI Act), as amended, 12 U.S.C. 1831o(k), the Office of Inspector General of the Board of
Governors of the Federal Reserve System conducted a material loss review of BankFirst. The
FDI Act requires that the Inspector General of the appropriate federal banking agency review the
agency‟s supervision of a failed institution when the loss to the Deposit Insurance Fund (DIF)
exceeds the greater of $25 million or 2 percent of the institution‟s total assets. The FDI Act
specifically requires that we

           ascertain why the institution‟s problems resulted in a loss to the DIF;
           review the supervision of the institution, including the agency‟s implementation of
           Prompt Corrective Action; and
           make recommendations for preventing any such loss in the future.

      BankFirst was supervised by the Federal Reserve Bank of Minneapolis (FRB Minneapolis),
under delegated authority from the Board of Governors of the Federal Reserve System (Board),
and by the South Dakota Division of Banking (State). The State closed BankFirst on
July 17, 2009, and named the Federal Deposit Insurance Corporation (FDIC) receiver. On
August 19, 2009, the FDIC Inspector General notified us that BankFirst‟s failure would result in
an estimated loss to the DIF of $90 million, or 36.6 percent of the bank‟s $246.1 million in total
assets.

     BankFirst, headquartered in Sioux Falls, South Dakota, became a state member bank in
March 1997. The bank was a limited purpose credit card bank with a business strategy that
focused on nationwide subprime credit card lending.1 However, the bank ceased opening new
subprime credit card accounts or increasing existing credit lines because of a formal enforcement


    1
      Under the Community Reinvestment Act, a bank may apply to its primary federal regulator to be designated a
limited purpose bank. A limited purpose bank is a financial institution that offers only a narrow product line (such
as credit card or motor vehicle loans) to a regional or broader market.
Governor Daniel K. Tarullo                                 2                                      February 19, 2010

action (Written Agreement) in April 2003 and began focusing on other businesses, such as
offering stored value cards to business customers.

      In early 2005, BankFirst was acquired by Marshall Bancorp Inc., a bank holding company
with various subsidiaries, including a national bank. Following the approval of the acquisition,
BankFirst became an affiliate of a nonbank entity—Marshall Investment Corporation—that
engaged in originating, syndicating, and servicing commercial real estate (CRE) loans on a
nationwide basis.2 In March 2005, BankFirst began lending in various markets throughout the
country, including Arizona, California, Colorado, Georgia, and Florida, by (1) originating loans
directly, and (2) assuming syndicated loans from its nonbank affiliate.

      BankFirst failed because its Board of Directors and management did not establish a
corporate governance and oversight framework to control the risks associated with its aggressive
loan growth and high concentration in CRE loans. The lack of effective credit risk management
controls resulted in a large volume of poorly underwritten CRE loans that were originated within
an eighteen-month period. BankFirst had pervasive internal control deficiencies, and bank
management‟s inability to identify and address loan portfolio weaknesses led to asset quality
deterioration and significant losses. Mounting losses eliminated earnings and depleted capital,
which ultimately caused the State to close BankFirst and appoint the FDIC as receiver on
July 17, 2009.

      Our analysis of BankFirst‟s supervision revealed that FRB Minneapolis did not devote
sufficient supervisory attention to verifying that BankFirst‟s Board of Directors and management
implemented a credit risk management framework to sufficiently control the bank‟s rapid growth
in a new activity—CRE lending. Supervisory guidance related to assessing Board of Directors
and management oversight of new business activities states that examiners should confirm that
bank management has implemented the infrastructure and internal controls necessary to manage
the risks associated with new business activities. A target examination report issued in March
2007 marked the point when FRB Minneapolis began to identify the full extent of the credit risk
management weaknesses that contributed to BankFirst‟s eventual failure. Many of the findings
and conclusions cited during the 2007 target examination contradicted the results from five prior
examinations. We believe that FRB Minneapolis should have focused greater attention on credit
risk controls during examinations that immediately followed the bank‟s transition to commercial
lending.

      Specifically, we believe that full scope examinations conducted in 2005 and 2006 presented
opportunities for FRB Minneapolis to take more forceful supervisory action. During the May
2005 examination, FRB Minneapolis noted that BankFirst‟s updated annual projection for loan
portfolio growth would almost triple the forecasted amount cited in management‟s business plan.
In our opinion, the magnitude of this projected increase provided FRB Minneapolis with an
opportunity to take immediate supervisory action to restrain further loan portfolio growth.
During the July 2006 full scope examination, examiners did request that BankFirst curtail further
loan growth to allow the loan portfolio to “season,” so examiners could assess the risks
associated with the bank‟s strategy. However, examiners did not conduct sufficient testing to
confirm that the bank‟s CRE lending controls were adequate to support the bank‟s rapid loan
   2
       Syndicating loans refers to collaboration among lenders to share in a loan or a package of loans.
Governor Daniel K. Tarullo                          3                                  February 19, 2010

growth. In our opinion, the 2006 full scope examination represented a missed opportunity at a
critical juncture to (1) uncover the full extent of BankFirst‟s credit risk management weaknesses,
including a compensation program that rewarded making loans but lacked incentives to ensure
that the loans were safe and sound, and (2) compel management to address identified
deficiencies. We believe that an earlier supervisory action to have BankFirst refrain from
making additional loans may have reduced the loss to the DIF.

      Recurring corporate governance weaknesses throughout the timeframe preceding the 2007
target examination also presented an opportunity for FRB Minneapolis to take more forceful
supervisory action. During examinations conducted between May 2005 and October 2006,
examiners noted a variety of corporate governance deficiencies, including (1) persistent strategic
planning issues; (2) a corporate organizational structure that created divided loyalty between
BankFirst and its holding company; (3) the substantial sharing of employees between affiliated
entities; and (4) the need for a Chief Risk Officer, or other advocate, with sufficient power to
manage financial and legal risk resulting from BankFirst‟s transactions with affiliated entities.
We believe that the corporate governance deficiencies identified by examiners during these
multiple examinations represented red flags that, at a minimum, warranted an earlier and more
forceful supervisory response, including an appropriate enforcement action.

      FRB Minneapolis did not conclude that a formal enforcement action was necessary until
the 2007 target examination. Upon reaching that conclusion, issuing the formal enforcement
action took five months. We believe that the time taken to issue the enforcement action was
unduly prolonged, but likely did not have a material impact. The critical juncture to uncover and
forcefully address BankFirst‟s loan growth and pervasive control deficiencies was in 2005 and
2006.

      BankFirst‟s failure offers important lessons learned for Federal Reserve examiners and
managers. First, heightened supervisory attention is vital when a bank implements a new
business strategy featuring growth in high-risk lending outside of the institution‟s traditional
market area. In addition, BankFirst‟s failure demonstrates the importance of confirming that
new business activities operate within an effective internal control infrastructure. The failure
also highlights the need for immediate, aggressive, and forceful supervisory action when
(1) management deviates from business plan projections or (2) examiners detect corporate
governance deficiencies that blur the barriers between affiliated entities.

       We provided our draft report to the Director of the Division of Banking Supervision and Regulation
for review and comment. Overall, the Director concurred with our conclusions and lessons learned, and
noted the critical importance of supervisors detecting and addressing serious issues sufficiently early so
that risks to the bank‟s viability can be controlled. His response is included as Appendix 3.
Governor Daniel K. Tarullo                       4                               February 19, 2010

      We appreciate the cooperation that we received from FRB Minneapolis and Board staff
during our review. The principal contributors to this report are listed in Appendix 4. This report
will be added to our public web site and will be summarized in our next semiannual report to
Congress. Please contact me if you would like to discuss this report or any related issues.

                                            Sincerely,

                                             /signed/

                                      Elizabeth A. Coleman
                                        Inspector General



cc:   Chairman Ben S. Bernanke
      Vice Chairman Donald L. Kohn
      Governor Elizabeth A. Duke
      Governor Kevin M. Warsh
      Mr. Stephen R. Malphrus
      Mr. Patrick M. Parkinson
      Mr. Ron J. Feldman
Board of Governors of the Federal Reserve System




 Material Loss Review of BankFirst




      Office of Inspector General


                                           February 2010
                                                TABLE OF CONTENTS

                                                                                                                                        Page

Background .................................................................................................................................. 9

Objectives, Scope, and Methodology ......................................................................................... 10

Cause of the Failure .................................................................................................................... 10

Supervision of BankFirst ............................................................................................................ 13

    FRB Minneapolis Approved MBI‟s Plans to Acquire BankFirst............................................. 16
    May 2005 Post-Merger Examination Focused on Resolving
    Legal and Operational Concerns .............................................................................................. 16

    December 2005 Target Examination Focused on Credit Administration ................................ 17

    January 2006 Corporate Governance Target Examination Noted
    Signs of Improvement .............................................................................................................. 17

    April 2006 Mortgage Banking Target Examination Found Appropriate
    Risk Management Practices ..................................................................................................... 18

    July 2006 Full Scope Examination Resulted in a CAMELS Composite 3 Rating................... 18

    March 2007 ALLL Target Examination Report Contradicted
    Prior Examination Findings...................................................................................................... 19

    April 2007 Asset Quality Target Examination Noted Further Asset
    Quality Deterioration ................................................................................................................ 20

    Written Agreement Executed with BankFirst and its Holding Company ................................ 21

    July 2007 Full Scope Examination Resulted in a CAMELS Composite 5 Rating................... 21

    March 2008 Asset Quality Target Examination Revealed Continued
    Asset Quality Deterioration ...................................................................................................... 22

    August 2008 Joint FRB Minneapolis-State Full Scope Examination
    Revealed Continued Noncompliance with the 2007 Written Agreement ................................ 22

    February 2009 Joint FRB Minneapolis-State ALLL Target Examination
    Resulted in PCA Letter............................................................................................................. 23




                                                                       7
Conclusions and Lessons Learned ............................................................................................. 23

    Lessons Learned ....................................................................................................................... 24

Analysis of Comments ................................................................................................................ 25

Appendixes................................................................................................................................... 27

    Appendix 1 – Glossary of Banking and Regulatory Terms ..................................................... 29

    Appendix 2 – CAMELS Rating System .................................................................................. 33

    Appendix 3 – Division Director‟s Comments.......................................................................... 35

    Appendix 4 – Principal Contributors to this Report ................................................................ 37




                                                                       8
Background
BankFirst, headquartered in Sioux Falls, South Dakota, became a state member bank in March
1997. The bank was supervised by the Federal Reserve Bank of Minneapolis (FRB
Minneapolis) under delegated authority from the Board of Governors of the Federal Reserve
System (Board), and by the South Dakota Division of Banking (State). BankFirst was a limited
purpose credit card bank with a business strategy that focused on nationwide subprime credit
card lending. The bank ceased opening new subprime credit card accounts or increasing existing
credit lines because of a formal enforcement action (a Written Agreement) in April 2003 and
began focusing on other businesses, such as offering stored value cards to business customers.

In September 2004, Marshall Bancorp Inc. (MBI), a bank holding company that had various
subsidiaries, including a national bank—Marshall Bank, N.A.—submitted an application to the
Board to acquire BankFirst by purchasing BankFirst‟s parent company.3 When the acquisition
closed on January 5, 2005, the bank sold its subprime credit card receivables to a third-party
vendor. BankFirst retained responsibility for monitoring the third-party vendor‟s compliance
with the 2003 Written Agreement‟s terms related to subprime credit card account servicing. As
shown in Chart 1 below, BankFirst became an affiliate of a nonbank entity held under common
control by MBI‟s majority owner.4 The affiliate—Marshall Investment Corporation—engaged in
originating, syndicating, and servicing commercial real estate (CRE) loans on a nationwide
basis.5

Chart 1 – BankFirst’s Banking and Nonbanking Affiliates Following Acquisition6



                                                    Majority Owner




                           Marshall Bancorp Inc.
                                  (MBI)                                The Marshall Group
                          (Bank Holding Company)


                                                                       Marshall Investment
                                                                          Corporation
                                         Marshall Bank, N.A.           (Nonbank Affiliate)
                      BankFirst
                                          (National Bank)




    3
      BankFirst‟s parent company was a bank holding company named BankFirst Corporation.
    4
      The majority owner of MBI also separately owned The Marshall Group, a nonbank holding company.
    5
      Syndicating loans refers to collaboration among lenders to share in a loan or a package of loans.
    6
      Marshall Bancorp Inc. changed its name to Marshall BankFirst Corporation following the acquisition of
BankFirst. However, to avoid any confusion resulting from the name change, we use the original name, “MBI,” or
“bank holding company” throughout this report.


                                                       9
FRB Minneapolis reviewed MBI‟s business plan for BankFirst and approved the bank‟s strategy
to engage in commercial and CRE lending activities on March 9, 2005. BankFirst‟s transition
from a limited purpose credit card bank to a commercial bank marked a substantial strategic and
operational shift. After the acquisition, BankFirst began originating loans directly and assumed
syndication activities from Marshall Investment Corporation in various markets throughout the
country, including Arizona, California, Colorado, Georgia, and Florida.

The State closed BankFirst on July 17, 2009, and named the Federal Deposit Insurance
Corporation (FDIC) as receiver. The FDIC estimated that the bank‟s failure would result in a
$90 million loss to the Deposit Insurance Fund (DIF), or 36.6 percent of the bank‟s $246.1
million in total assets. In a letter dated August 19, 2009, the FDIC Inspector General advised us
that the FDIC had determined that BankFirst‟s failure would result in a material loss to the DIF.
Under section 38(k) of the Federal Deposit Insurance Act (FDI Act), a loss to the DIF is
considered material if it exceeds the greater of $25 million or 2 percent of the institution‟s total
assets.

Objectives, Scope, and Methodology
When a loss to the DIF is considered material, section 38(k) of the FDI Act requires that the
Inspector General of the appropriate federal banking agency review the agency‟s supervision of
the failed institution and

          ascertain why the institution‟s problems resulted in a loss to the DIF;
          review the agency‟s implementation of Prompt Corrective Action (PCA); and
          make recommendations for preventing any such loss in the future.

To accomplish our objectives, we reviewed the Commercial Bank Examination Manual (CBEM)
and relevant supervisory guidance. We interviewed staff and collected data from the Board in
Washington, D.C., and FRB Minneapolis. We also reviewed correspondence, surveillance
reports, Reports of Examination (examination reports) issued between 2005 and 2009, and
examination work papers prepared by FRB Minneapolis. Appendixes at the end of this report
contain a glossary that defines key banking and regulatory terms and a description of the
CAMELS rating system.7 We conducted our fieldwork from September 2009 through December
2009, in accordance with the Quality Standards for Inspections issued by the Council of the
Inspectors General on Integrity and Efficiency.

Cause of the Failure
BankFirst failed because its Board of Directors and management did not establish a corporate
governance and oversight framework to control the risks associated with its aggressive loan
growth and high concentration in CRE loans. The lack of effective credit risk management

    7
      The CAMELS acronym represents six components: Capital adequacy, Asset quality, Management practices,
Earnings performance, Liquidity position, and Sensitivity to market risk. Each component and overall composite
score is assigned a rating of 1 through 5, with 1 having the least regulatory concern and 5 having the greatest
concern.


                                                       10
controls resulted in a large volume of poorly underwritten CRE loans that were originated within
an eighteen-month period. BankFirst had pervasive internal control deficiencies, and the
inability of bank management to identify and address loan portfolio weaknesses led to asset
quality deterioration and significant losses. Mounting losses eliminated earnings and depleted
capital, which ultimately caused the State to close BankFirst and appoint the FDIC as receiver on
July 17, 2009.

BankFirst experienced rapid loan growth during 2005 and 2006 as it transitioned from a limited
purpose credit card bank to a commercial bank. The bank‟s loan portfolio increased 1,179
percent from $36.6 million as of March 31, 2005, to $431.8 million by year-end 2006.
Examiners noted that BankFirst‟s rapid loan growth significantly exceeded management‟s
projections. The bank‟s business plan projected its annual loan portfolio to be $80 million in
2005, $205 million in 2006, and $373 million in 2007. As shown in Chart 2, BankFirst‟s year-
end loan portfolio significantly exceeded annual projections in 2005 and 2006. For example, in
2006, less than two years after it began making loans as a commercial bank, BankFirst surpassed
its $205 million projection by approximately $220 million, or 110 percent.

Chart 2 – Actual Loans Compared to Business Plan Projections for 2005 and 2006


                500,000

                450,000

                400,000

                350,000
 $000 omitted




                300,000

                250,000                                            Projected loans
                200,000                                            Actual loans

                150,000

                100,000

                 50,000

                     0
                          2005                   2006
                                  Year-End




BankFirst‟s significant loan portfolio growth included numerous borrowers who eventually
proved to be less than creditworthy. The bank‟s compensation practices emphasized loan growth
and encouraged excessive risk taking—factors that contributed to the high-risk portfolio.
According to examiners, BankFirst‟s compensation program rewarded loan officers for



                                               11
generating fee income on loans they originated, but did not contain incentives to ensure that the
bank made safe and sound loans.

The bank‟s rapid growth strategy also led to a CRE concentration that reached 350 percent of
risk-based capital by year-end 2006.8 In general, concentrations of credit increase a financial
institution‟s vulnerability to changes in the marketplace and compound the risks inherent in
individual loans. Therefore, concentrations may represent a substantial risk to the safety and
soundness of an institution.

BankFirst‟s asset quality deteriorated and exposed pervasive corporate governance deficiencies
at the bank. Examiners noted that BankFirst‟s organizational structure created divided loyalty
between bank management and holding company management. For example, BankFirst‟s
President did not oversee and control the bank‟s lending activities because its Chief Credit
Officer reported to the bank holding company‟s Chief Operating Officer. In addition, examiners
noted extensive sharing of employees that blurred institutional barriers between BankFirst and
Marshall Investment Corporation and made it difficult to determine which functions were
performed by each entity.

BankFirst‟s credit administration program contained significant and pervasive control
deficiencies, and management‟s inability to identify and address loan portfolio weaknesses led to
further asset quality deterioration. For example, BankFirst‟s credit administration program did
not include an independent loan review function to provide an impartial assessment of loan
quality. In general, an independent loan review function can be essential to a bank‟s safety and
soundness, especially for those banks engaged in risky lending activities. In addition,
BankFirst‟s loan risk rating process consistently produced unreliable results and examiners
routinely downgraded management‟s loan ratings. Further, the full extent of loan portfolio
weaknesses was masked by the bank‟s use of (1) automatic maturity extensions without fully
assessing the underlying loan‟s creditworthiness and (2) interest reserves on speculative land
loans.9 Asset quality continued to deteriorate as loans not previously classified began to perform
poorly due to declines in markets served by the bank. As a result of BankFirst‟s inability to
correct credit administration deficiencies and manage its deteriorating loan portfolio, classified
assets increased from $4.2 million in April 2005, to $180.4 million in February 2008.

The growth in classified assets prompted corresponding increases in BankFirst‟s allowance for
loan and lease losses (ALLL) and loss provision expense (provision). As shown in Chart 3 on
page 13, the provision totaled $3.4 million for the year ending December 31, 2005. By the end
of 2008, the provision increased eighteenfold to $63.1 million, contributing to the bank‟s net loss



    8
       According to Supervision and Regulation Letter 07-01, institutions that meet the following criteria present
potential CRE concentration risk: (1) total CRE loans represent 300 percent or more of the institution‟s total capital
and (2) the outstanding balance of the institution‟s CRE loan portfolio has increased by 50 percent or more during
the prior thirty-six months.
     9
       Lenders may establish an interest reserve account to periodically advance loan funds to pay interest charges on
the outstanding balance of an acquisition, development, and construction loan. The interest is capitalized and added
to the loan balance. This practice can mask loans that would otherwise be reported as delinquent and erode
collateral protection, increasing a lender‟s exposure to credit losses.


                                                         12
of $72.7 million. The 2008 loss eliminated retained earnings and significantly reduced
BankFirst‟s capital; however, the bank remained adequately capitalized through 2008.10

Chart 3 – Impact of Provision Expense on Net Income


                     $75,000
                     $60,000
                     $45,000
                     $30,000
                     $15,000
     $000 omitted




                           $0
                    -$15,000
                    -$30,000
                    -$45,000
                    -$60,000
                    -$75,000
                    -$90,000
                                                                                               a
                                   2004    2005        2006           2007         2008   2009
                                                                                                 a
                                                           Year-End

                                                  Provision Expense     Earnings

            a
                    Data as of 6/30/2009

The bank‟s 2009 first quarter loss of $14.5 million reduced capital by nearly 50 percent; and in
April 2009, FRB Minneapolis implemented PCA by notifying the bank that its capital position
had fallen to significantly undercapitalized. The Board issued a PCA Directive on
June 15, 2009, that, among other things, required BankFirst to (1) raise additional capital to
achieve the adequately capitalized designation, or (2) be acquired by or merge with another
depository institution. BankFirst‟s efforts to obtain new capital from insiders or its parent
company or to identify a viable acquisition or merger candidate were not successful. The State
closed BankFirst and appointed the FDIC as receiver on July 17, 2009.

Supervision of BankFirst
FRB Minneapolis complied with examination frequency guidelines for the 2005 through 2009
time frame that we reviewed. As shown in Table 1 on page 15, FRB Minneapolis and the State
conducted four full scope examinations and seven target examinations from 2005 until
BankFirst‟s failure in July 2009. The bank received CAMELS composite 3 (fair) ratings from
    10
       Written Agreements executed in 2003 and 2007 required the bank to meet and maintain a specific minimum
capital level. Under PCA, the bank‟s capital designation would be kept at adequately capitalized if it maintained
that level of capital.


                                                              13
May 2005 through October 2006. In December 2006, FRB Minneapolis began an ALLL target
examination that resulted in BankFirst being downgraded to a CAMELS composite 4 (marginal)
rating. During this examination, CAMELS component ratings for capital and asset quality
received double downgrades to 4 and earnings received a triple downgrade to 5. Examiners
returned to conduct an asset quality target examination in April 2007, one month after issuing the
ALLL target examination report. Subsequently, a Written Agreement (WA 2007) was issued in
August 2007 to address the bank‟s weaknesses, including Board of Directors‟ oversight, loan
policy, credit administration, and compliance with affiliate transaction requirements. A full
scope examination report issued in February 2008 further downgraded the bank‟s CAMELS
composite rating to a 5 (unsatisfactory) and questioned the bank‟s viability in light of its
“precarious” financial condition.

Three subsequent examinations revealed that BankFirst‟s Board of Directors and its management
did not fully implement the actions required under WA 2007 and prior examination reports. The
bank did not develop (1) a business plan that met FRB Minneapolis‟ expectations for returning
the institution to a safe and sound operating condition and (2) a credit administration program
tailored to the needs of its deteriorating loan portfolio. During an August 2008 full scope
examination, FRB Minneapolis found the bank to be materially noncompliant with the terms of
WA 2007. The ensuing February 2009 ALLL target examination declared the bank significantly
undercapitalized and resulted in a PCA letter. The Board subsequently issued a PCA Directive
requiring BankFirst to (1) increase its capital to an adequately capitalized position or (2) be
acquired by, or merge with, another depository institution. The State closed BankFirst on
July 17, 2009, subsequent to its failure to meet the deadlines imposed in the PCA Directive.




                                               14
Table 1 – BankFirst Supervisory Overview11

                                                                                         CAMELS Component
              Examination
                                                                                             Ratings

                                                   Agency          CAMELS                                                                                   Enforcement




                                                                                          Asset Quality

                                                                                                          Management




                                                                                                                                              Sensitivity
                                                                                                                                  Liquidity
                                                                                                                       Earnings
                                             Conducting or Leading Composite                                                                                Actions/PCA




                                                                               Capital
                Report
 Start Date                    Scope           the Examination      Rating                                                                                  Notifications
              Issue Date




  5/9/2005     8/19/2005         Full            FRB Minneapolis         3       2             2             3            3          1            2


                               Credit
 12/12/2005    1/30/2006    Administration       FRB Minneapolis        n/a
                               Target
                              Corporate
  1/23/2006    3/15/2006     Governance          FRB Minneapolis        n/a
                               Target

                              Mortgage
  4/3/2006     5/26/2006                         FRB Minneapolis        n/a
                            Banking Target


  7/3/2006     10/13/2006        Full            FRB Minneapolis         3       2             2             3            2          2            2


                               ALLL                                                                                                                           Written
 12/11/2006     3/7/2007                         FRB Minneapolis         4       4             4             4            5          3            2
                               Target                                                                                                                        Agreement


                            Asset Quality
  4/23/2007     7/6/2007                         FRB Minneapolis        n/a
                               Target


  7/9/2007      2/7/2008         Full            FRB Minneapolis         5       4             5             5            5          4            3


                            Asset Quality
  3/3/2008     7/23/2008                         FRB Minneapolis        n/a
                               Target


                                              Joint FRB Minneapolis -
  8/11/2008    12/18/2008        Full                                    5       5             5             5            5          5            4
                                                       State


                               ALLL           Joint FRB Minneapolis -                                                                                        PCA Letter
  2/17/2009     5/1/2009                                                 5       5             5             5            5          5            4
                               Target                  State                                                                                                PCA Directive




A synopsis of key Federal Reserve supervisory activities follows, including full scope
examinations, target examinations, and enforcement actions.




    11
       This table only includes safety and soundness examinations and, therefore, does not include Bank Secrecy
Act target examinations that began in March 2007 and March 2008.


                                                                   15
FRB Minneapolis Approved MBI’s Plans to Acquire BankFirst

On December 15, 2004, FRB Minneapolis approved MBI‟s acquisition of BankFirst based on a
series of representations and commitments made by MBI management. MBI management
initially planned to transfer the CRE lending activities of Marshall Investment Corporation (its
nonbank affiliate) to Marshall Bank, N.A. Because the planned transfer hinged on Office of the
Comptroller of the Currency (OCC) approval to increase CRE lending at Marshall Bank, the
MBI acquisition application included a contingency plan for transferring CRE lending activities
to BankFirst on an interim basis if the OCC approval could not be obtained. FRB Minneapolis
accepted this contingency plan subject to BankFirst management submitting an acceptable
business plan prior to the bank commencing CRE lending activities.

During subsequent discussions with BankFirst‟s management, FRB Minneapolis noted that the
bank‟s draft business plan contained loan growth projections that increased significantly from the
forecasts submitted as part of the acquisition application. In internal communications, FRB
Minneapolis acknowledged the new projections and highlighted the need to closely monitor the
bank‟s growth and loan portfolio. Bank management ultimately developed and submitted a
business plan that FRB Minneapolis accepted on March 9, 2005. This approval granted
BankFirst full authority to engage in commercial and CRE lending activities, but required that
any significant deviation from the business plan be subject to FRB Minneapolis‟ prior approval.

May 2005 Post-Merger Examination Focused on Resolving
Legal and Operational Concerns

FRB Minneapolis began its first post-merger examination in May 2005 and issued an
examination report in August 2005. This full scope examination resulted in BankFirst receiving
a CAMELS composite 3 rating. In addition, examiners upgraded the CAMELS component
ratings for capital (from a 3 to a 2), asset quality (from a 4 to a 2), and liquidity (from a 2 to a 1).
These upgrades reflected the impact of the bank selling its subprime credit card receivables to a
third- party vendor in January 2005.

FRB Minneapolis noted that the bank‟s new management made progress in resolving the
subprime credit card issues related to the 2003 Written Agreement, but criticized the Board of
Directors‟ and management‟s planning efforts. Examiners found that management expected the
bank‟s loan portfolio to reach $234 million by the end of 2005, which significantly exceeded
management‟s initial $80 million projection. FRB Minneapolis criticized management for this
“significant divergence,” but the credit risk section of the examination report did not address the
issue and concluded that composite credit risk was moderate. We believe that the magnitude of
this divergence of actual growth over projections presented an early opportunity for FRB
Minneapolis to take forceful supervisory action to restrain further loan portfolio growth. Instead,
actual loan portfolio growth exceeded all prior estimates as BankFirst‟s loan portfolio grew to
$255 million as of December 31, 2005.

The examination report required that BankFirst‟s management “undertake more thorough
planning surrounding new initiatives.” Starting in March 2005, the bank transitioned from a
limited purpose credit card bank to a bank engaged in commercial lending activities; and in



                                                   16
April 2005, it opened a mortgage banking division that originated loans to individual consumers.
Both of these actions had ramifications under the Community Reinvestment Act; however,
according to examiners, management had not developed plans to comply with the applicable
requirements.12 The inadequate planning surrounding these new business activities provided an
early indication that BankFirst‟s management lacked familiarity with the regulatory expectations
associated with operating an insured depository institution. In addition, FRB Minneapolis noted
that the bank did not provide prior notice concerning its intent to engage in mortgage banking
activities. In our opinion, BankFirst‟s failure to provide prior notice represented a significant
deviation from the approved business plan that further demonstrated the bank‟s corporate
governance and management weaknesses.

Examiners concluded that BankFirst‟s credit risk increased because of its transition to
commercial and CRE lending activities. However, the examination report noted that
management implemented an appropriate loan policy, acceptable credit risk management
processes for new commercial loans, and an adequate ALLL methodology. Examiners
concluded that the bank‟s commercial and CRE lending internal controls were adequate, but
emphasized that management needed to devote more attention to monitoring its compliance with
the 2003 Written Agreement concerning its third-party vendor monitoring.

December 2005 Target Examination Focused on Credit Administration

In December 2005, FRB Minneapolis began a target examination of BankFirst‟s credit
administration practices related to its commercial lending activities. The examination report,
issued in January 2006, concluded that management implemented an acceptable credit risk
management program. The target examination report observed that many loans contained
exceptions to the bank‟s underwriting guidelines, but noted that underwriters appeared to have
taken appropriate actions to mitigate the deviations. At the time of the examination,
management had not classified any loans originated by BankFirst. The examination report also
noted that the bank‟s credit risk continued to increase because of the current and projected rapid
growth in its loan portfolio. Examiners stated that BankFirst‟s “overall credit process” should be
assessed during the 2006 full scope examination.

January 2006 Corporate Governance Target Examination Noted Signs of Improvement

In January 2006, FRB Minneapolis began a corporate governance target examination that
focused on concerns previously identified during the 2005 full scope examination. Examiners
reviewed management‟s oversight of the third-party vendor‟s credit card servicing practices.
The examination report issued in March 2006 noted management‟s improved oversight of the
third-party vendor.




    12
       The Community Reinvestment Act is intended to encourage depository institutions to help meet the credit
needs of the communities in which they operate, including low- and moderate-income neighborhoods, consistent
with safe and sound operations. The act requires that each depository institution's record in helping meet the credit
needs of its entire community be evaluated periodically.


                                                          17
April 2006 Mortgage Banking Target Examination Found
Appropriate Risk Management Practices

In April 2006, FRB Minneapolis began a mortgage banking target examination, and a report was
issued in May 2006. As noted above, BankFirst established a new mortgage banking division,
Marshall BankFirst Mortgage Group (MBMG), in April 2005. MBMG engaged in originating
retail mortgage loans and purchasing residential mortgages for sale in the secondary markets.
Examiners assessed the business strategy, the management structure, and the effectiveness of risk
management controls and oversight. The examination report concluded that bank management
implemented appropriate risk management and internal controls for this division.

July 2006 Full Scope Examination Resulted in a CAMELS Composite 3 Rating

In July 2006, FRB Minneapolis began a full scope examination, and the October 2006
examination report assigned another CAMELS composite 3 rating. Examiners assessed
BankFirst‟s corporate governance, capital position, compliance with the 2003 Written
Agreement, and loan portfolio management. Examiners noted matters requiring Board of
Directors‟ attention that related to corporate governance, capital, and loan growth.

With respect to corporate governance, examiners observed that the strategy of the bank‟s holding
company to create an integrated financial services company resulted in a complex corporate
organizational structure. Examiners noted that this structure enabled substantial sharing of
employees between affiliates, blurred institutional barriers among the affiliated entities, and
contributed to a violation of the Board‟s Regulation W related to an unsecured extension of
credit from the bank to Marshall Investment Corporation.13 According to examiners, BankFirst‟s
Co-Chairman and Chief Financial Officer knew this violation occurred, but they did not inform
the bank‟s Compliance Officer for several months. The examination report concluded that the
bank‟s operating model and the depth and breadth of its corporate governance issues required the
Board of Directors‟ attention and warranted the appointment of a Chief Risk Officer, or other
advocate, with sufficient power to manage financial and legal risk resulting from BankFirst‟s
transactions with affiliated entities.

Examiners cited capital as another matter requiring the Board of Directors‟ attention. The
examination report concluded that the bank and its holding company‟s consolidated capital
position was “inadequate given the organization‟s rapid asset growth.” Examiners required the
holding company to take affirmative action to improve its consolidated capital ratios.

The examination report also noted that the bank‟s loan portfolio growth required the Board of
Directors‟ attention. Examiners again observed an increasing credit risk trend, citing rapid
growth in high-risk lending activities outside BankFirst‟s traditional service areas. According to
examiners, total loans grew at an annualized rate of 99.9 percent during the first three months of
2006. In addition, examiners noted that eighteen months after FRB Minneapolis approved the
bank‟s commercial and CRE lending activities, management exceeded the three-year growth
projections outlined in BankFirst‟s business plan. The examination report concluded that bank

    13
        Regulation W establishes certain quantitative limits and other prudential requirements for loans, purchases of
assets, and certain other transactions between a member bank and its affiliates.


                                                          18
management‟s “focus on promoting the rapid growth in loans diverted management‟s attention
from other areas such as ensuring appropriate oversight structures are in place.” Further, the
examination report noted additional “significant” deviations from commitments made in the
business plan related to (1) the size limit for individual loans and (2) the transfer of Marshall
Investment Corporation‟s loan origination activities to BankFirst. Because of BankFirst‟s
growth in high-risk lending activities and significant deviations from the business plan, FRB
Minneapolis requested that the bank refrain from making additional loans until the current loan
portfolio “seasoned.” Nevertheless, examiners stated that “credit risk is mitigated by good
underwriting and experienced lenders, a reliable loan grading system, good loan documentation,
and active review and oversight.”

Section 1000.1 of the CBEM states that examiners should assess the effectiveness of the Board
of Directors‟ and management‟s oversight by confirming that management implemented the
infrastructure and internal controls necessary to manage the risks associated with new business
activities. Examiners focused, among other things, on BankFirst‟s corporate governance issues
and capital, but, in our opinion, did not conduct sufficient detailed testing to confirm that
BankFirst‟s Board of Directors and management implemented the credit risk management
infrastructure and internal controls necessary to manage the risks associated with the bank‟s new
commercial and CRE lending activity. We believe that the following prior supervisory
observations indicated the need for detailed testing during the 2006 full scope examination:

         FRB Minneapolis‟ internal communications related to the business plan approval
         process emphasized the need to “watch growth carefully” and monitor loans
         “frequently”;
         Examiners noted a sustained, increasing credit risk trend over multiple prior
         examinations; and
         The 2005 credit administration target examination recommended that BankFirst‟s credit
         process should be reviewed during the 2006 full scope examination.

In our view, FRB Minneapolis‟ failure to conduct detailed testing represented a missed
opportunity to detect and appropriately act to mitigate BankFirst‟s credit risk management
weaknesses at a critical juncture.

March 2007 ALLL Target Examination Report Contradicted Prior Examination Findings

In December 2006, FRB Minneapolis began an ALLL target examination, but expanded the
scope of the target examination because of recent growth in the bank‟s loan portfolio and
substantial increases in past due and nonaccrual loans predominantly in the CRE portfolio. The
examination report, issued in March 2007, highlighted significant concerns regarding
BankFirst‟s corporate governance, compensation program, lending practices, and credit risk
management. This examination marked the point when FRB Minneapolis began to identify the
full extent of credit risk management weaknesses that contributed to the bank‟s eventual failure.
Many of the findings and conclusions contradicted prior examination results. Based on the
significance of these findings, FRB Minneapolis informed bank management that immediate
action was required to remedy the deficiencies noted during the examination and that a formal
enforcement action would be issued.


                                                19
This examination downgraded the bank to a CAMELS composite 4 rating. This rating indicated
that the institution posed a risk to the DIF and that the bank‟s failure was a distinct possibility
unless management acted to resolve concerns noted by examiners. The composite rating
downgrade occurred because of substantial weaknesses noted in asset quality, credit
administration, management, and risk management. CAMELS component ratings for capital and
asset quality each received a double downgrade from a 2 to a 4, while the earnings component
received a triple downgrade from a 2 to a 5.

Examiners noted persistent corporate governance issues and observed that poor planning
permeated the organization because management failed to analyze the consequences of its
strategies before acting. According to examiners, management failed to implement an adequate
loan policy, loan procedures were minimal to nonexistent, and BankFirst‟s credit analysts lacked
the expertise to identify and monitor problem loans. The examination findings concerning the
loan policy and related procedures directly contradicted prior examination results. Examiners
observed that the bank‟s atypical organizational structure created divided loyalty between the
bank and its holding company management because BankFirst‟s Chief Credit Officer, who was
responsible for the bank‟s lending activities, reported to the holding company‟s Chief Operating
Officer. Therefore, BankFirst‟s President did not control the bank‟s lending activities.

According to examiners, BankFirst‟s incentive compensation program for its loan officers
rewarded risk taking and ignored loan quality. Examiners noted that loan officers received
compensation based on the fee income generated, but the program did not encourage loan
officers to make safe and sound loans. The examination report stated that the compensation
program for the managing director overseeing BankFirst‟s loan origination activities also did not
contain a loan quality component.

Examiners cited key weaknesses in the bank‟s credit administration program. According to
examiners, the bank did not have an independent loan review function to assess the initial credit
grades assigned by underwriters and credit analysts. As a result, examiners downgraded, by two
grades or more, 48 percent of the loans they reviewed. Examiners concluded that the bank‟s loan
ratings did not fully capture the population of nonperforming loans because specific unsafe and
unsound lending practices, such as the use of automatic maturity extensions and interest reserves
on speculative land loans, masked the actual performance of specific loans. Examiners also
concluded that the bank‟s ALLL methodology was inadequate and did not conform to generally
accepted accounting principles.

We believe that the above findings called into question the July 2006 full scope examination
conclusion that “credit risk is mitigated by good underwriting.” In our opinion, the bank‟s
underwriting practices should have received greater scrutiny during the 2006 full scope
examination.

April 2007 Asset Quality Target Examination Noted Further Asset Quality Deterioration

FRB Minneapolis began an asset quality target examination in April 2007 and issued the
examination report in July 2007. Examiners noted “continued deterioration in asset quality as a



                                                20
number of loans previously not classified have begun to show signs of weakness.” The
examination report concluded that classified assets were excessive and presented an
unacceptable risk to the bank. Examiners emphasized the need to charge off certain classified
assets to comply with a South Dakota regulation. The examination report acknowledged
management‟s efforts to improve credit risk management by enhancing problem loan
identification and workout plans for problem loans.

Written Agreement Executed with BankFirst and its Holding Company

As mentioned above, the March 2007 ALLL target examination report noted that a formal
enforcement action would be issued. Prior to issuing the formal enforcement action, FRB
Minneapolis conducted a Bank Secrecy Act (BSA) target examination in March 2007 and the
asset quality target examination discussed above. In May 2007, examiners issued the BSA target
examination report, and FRB Minneapolis determined that the findings warranted including
BSA-related action steps in the formal enforcement action. On June 7, 2007, FRB Minneapolis
sent a draft version of the formal enforcement action to BankFirst‟s management for discussion.
Because the draft version contained action steps related to BSA, management raised a series of
objections that delayed the formal enforcement action, even though management substantially
agreed to the provisions related to the bank‟s commercial lending activities.

On August 2, 2007, FRB Minneapolis and the State executed a Written Agreement (WA 2007)
with the holding company and BankFirst that obligated both entities to improve their internal
controls. WA 2007 did not contain any action steps related to BSA.14 Among other things, the
Written Agreement required management to correct the deficiencies noted in the 2007 ALLL
target examination and prior examinations by

          continuing to refrain from originating new loans;
          developing a lending policy, credit administration policies and procedures, and loan
          syndication policies and procedures consistent with regulatory expectations;
          developing a credit administration program consistent with regulatory expectations;
          assuring the adequacy of the ALLL;
          developing a consolidated capital plan; and
          assuring full compliance with the requirements of Regulation W.

In our opinion, a formal enforcement action to address the issues raised in the 2007 ALLL target
examination should not have been delayed to include action items related to BSA.

July 2007 Full Scope Examination Resulted in a CAMELS Composite 5 Rating

In July 2007, FRB Minneapolis began a full scope examination that resulted in the bank being
downgraded to a CAMELS composite 5 rating. The examination report, issued in February
2008, stated that the bank‟s condition remained “precarious.” The component ratings for asset
quality, management, liquidity, and sensitivity were downgraded. The poor and deteriorating
condition of the loan portfolio and the resulting impact on capital, earnings, and liquidity placed
    14
      FRB Minneapolis ultimately entered into a separate enforcement action with BankFirst related to BSA in
September 2008.


                                                       21
the bank in an extremely weak financial condition. At the time, the bank operated at a loss, and
examiners speculated that such losses would likely continue for the foreseeable future.15

Corporate governance remained a key concern throughout the examination. The request to
refrain from expanding the loan portfolio made during the 2006 full scope examination prompted
management to contemplate repositioning BankFirst as a “plain vanilla community bank.”
According to examiners, management encountered difficulties developing “a vision of what a
„plain vanilla community bank‟ will look like or how the Bank intends to achieve the objective
of becoming such an organization.” Because of these difficulties, examiners required
management to develop a comprehensive written business plan to return the bank to profitability
and a safe and sound operating condition. Examiners noted that “effective oversight and
resolution of the Bank‟s serious risk management deficiencies have been hampered by the very
high turnover in Bank directors and senior management since the last examination.” By the
conclusion of the examination, only one of the directors elected in January 2007 remained, and
BankFirst had only three directors in total. In addition, the bank President and the Chief Credit
Officer also left the institution in the summer of 2007.

March 2008 Asset Quality Target Examination Revealed
Continued Asset Quality Deterioration

FRB Minneapolis began an asset quality target examination in March 2008. The July 2008
examination report confirmed that the ratings issued during the 2007 full scope examination
remained appropriate, although the target examination report did not assign formal ratings.
Examiners‟ prior prediction of “losses for the foreseeable future” proved accurate as the bank‟s
asset quality continued to deteriorate. This examination report identified significant deficiencies
in every area of credit administration. Examiners observed that loan review and risk rating
processes produced unreliable grades. FRB Minneapolis agreed with only half of the loan grades
assigned by management. With respect to corporate governance, examiners noted that the
business plan submitted to fulfill a prior examination requirement did not meet any of the
specifications outlined by examiners. The examination report emphasized that management had
not fully addressed FRB Minneapolis‟ prior directive to consider options to sell or liquidate the
bank.

August 2008 Joint FRB Minneapolis-State Full Scope Examination
Revealed Continued Noncompliance with the 2007 Written Agreement

A joint FRB Minneapolis and State full scope examination that began in August 2008
downgraded BankFirst‟s capital and liquidity to CAMELS component 5 ratings. In a report
issued in December 2008, examiners noted that asset quality deterioration further strained the
bank‟s operating results and caused capital levels to decline. According to examiners,
BankFirst‟s management indicated that a capital injection from the holding company was not an
option because the holding company had a negative net worth and the majority shareholder
would not provide additional capital. At this juncture, management‟s business plan consisted of

    15
       These operating results did not include a $51.8 million gain associated with the sale of BankFirst‟s stored
value card business unit. Examiners noted that the sale provided a short-term boost to capital as of
November 30, 2007, but removed one of the bank‟s few profitable business lines.


                                                          22
ceasing operations as an insured depository institution by selling its assets. Examiners noted that
the success of this plan relied on a number of factors, including identifying a willing buyer.
Examiners also found that the bank and its holding company were “materially noncompliant”
with the terms of WA 2007 because many of the required actions remained unaddressed.

February 2009 Joint FRB Minneapolis-State ALLL Target Examination
Resulted in a PCA Letter

FRB Minneapolis conducted a joint examination with the State that began in February 2009. It
confirmed that the ratings issued in the December 2008 examination report remained the same.
Examiners observed that the continuing decline in equity capital, poor asset quality, and sizable
operating losses increased the likelihood of failure in the near term. Examiners observed that
issues related to the adequacy of the ALLL, which had become evident during the 2007 ALLL
target examination, were never resolved. The bank‟s capital position dropped to significantly
undercapitalized, and FRB Minneapolis issued a PCA letter on April 20, 2009.

On May 5, 2009, the State issued a formal order requiring BankFirst‟s Board of Directors and
management to increase the bank‟s capital position and develop a capital plan by June 15, 2009.
Management‟s response, dated May 29, 2009, indicated that additional capital was not available.
On June 15, 2009, the Board issued a PCA Directive requiring BankFirst to (1) increase its
capital to an adequately capitalized position or (2) merge with, or be acquired by, another
depository institution. The State closed BankFirst on July 17, 2009, subsequent to its failure to
meet the deadlines imposed in the PCA Directive.

Conclusions and Lessons Learned
BankFirst failed because its Board of Directors and management did not establish a corporate
governance and oversight framework to control the risks associated with its aggressive loan
growth and high concentration in CRE loans. The lack of effective credit risk management
controls resulted in a large volume of poorly underwritten CRE loans that were originated within
an eighteen-month period. BankFirst had pervasive internal control deficiencies, and bank
management‟s inability to identify and address loan portfolio weaknesses led to asset quality
deterioration and significant losses. Mounting losses eliminated earnings and depleted capital,
which ultimately caused the State to close BankFirst and appoint the FDIC as receiver on
July 17, 2009.

Our analysis of BankFirst‟s supervision revealed that FRB Minneapolis did not devote sufficient
supervisory attention to verifying that BankFirst‟s Board of Directors and management
implemented a credit risk management framework to sufficiently control the bank‟s rapid growth
in a new activity—CRE lending. Supervisory guidance related to assessing Board of Directors
and management oversight of new business activities states that examiners should confirm that
bank management has implemented the infrastructure and internal controls necessary to manage
the risks associated with new business activities. A target examination report issued in March
2007 marked the point when FRB Minneapolis began to identify the full extent of the credit risk
management weaknesses that contributed to BankFirst‟s eventual failure. Many of the findings
and conclusions cited during the 2007 target examination contradicted the results from five prior


                                                23
examinations. We believe that FRB Minneapolis should have focused greater attention on credit
risk controls during examinations that immediately followed the bank‟s transition to commercial
lending.

Specifically, we believe that the full scope examinations conducted in 2005 and 2006 presented
opportunities for FRB Minneapolis to take more forceful supervisory action. During the May
2005 examination, FRB Minneapolis noted that BankFirst‟s updated annual projection for loan
portfolio growth would almost triple the forecasted amount cited in management‟s business plan.
In our opinion, the magnitude of this projected increase provided FRB Minneapolis with an
opportunity to take immediate supervisory action to restrain further loan portfolio growth.
During the July 2006 full scope examination, examiners did request that BankFirst curtail further
loan growth to allow the loan portfolio to season, so examiners could assess the risks associated
with the bank‟s strategy. However, examiners did not conduct sufficient testing to confirm that
the bank‟s CRE lending controls were adequate to support the bank‟s rapid loan growth. In our
opinion, the 2006 full scope examination represented a missed opportunity at a critical juncture
to (1) uncover the full extent of BankFirst‟s credit risk management weaknesses, including a
compensation program that rewarded making loans but lacked incentives to ensure that the loans
were safe and sound, and (2) compel management to address identified deficiencies. We believe
that an earlier supervisory action to have BankFirst refrain from making additional loans may
have reduced the loss to the DIF.

Recurring corporate governance weakness throughout the timeframe preceding the 2007 target
examination also presented an opportunity for FRB Minneapolis to take more forceful
supervisory action. During examinations conducted between May 2005 and October 2006,
examiners noted a variety of corporate governance deficiencies, including (1) persistent strategic
planning issues; (2) a corporate organizational structure that created divided loyalty between
BankFirst and its holding company; (3) the substantial sharing of employees between affiliated
entities; and (4) the need for a Chief Risk Officer, or other advocate, with sufficient power to
manage financial and legal risk resulting from BankFirst‟s transactions with affiliated entities.
We believe that the corporate governance deficiencies identified by examiners during these
multiple examinations represented red flags that, at a minimum, warranted an earlier and more
forceful supervisory response, including an appropriate enforcement action.

FRB Minneapolis did not conclude that a formal enforcement action was necessary until the
2007 target examination. Upon reaching that conclusion, it took five months to issue the formal
enforcement action. We believe that the time taken to issue the enforcement action was unduly
prolonged, but likely did not have a material impact. The critical juncture to uncover and
forcefully address BankFirst‟s loan growth and pervasive control deficiencies was in 2005 and
2006.

Lessons Learned

BankFirst‟s failure offers important lessons learned for Federal Reserve examiners and
managers. First, heightened supervisory attention is vital when banks implement a new business
strategy featuring growth in high-risk lending outside of the institution‟s traditional market area.
In addition, BankFirst‟s failure demonstrates the importance of confirming that new business
activities operate within an effective internal control infrastructure. The failure also highlights


                                                 24
the need for immediate, aggressive, and forceful supervisory action when (1) management
deviates from business plan projections or (2) examiners detect corporate governance
deficiencies that blur the barriers between affiliated entities.

Analysis of Comments
We provided a copy of our report to the Director of the Division of Banking Supervision and
Regulation for review and comment. In his response, included as Appendix 3, the Director
agreed with the report‟s conclusions and lessons learned. He noted that FRB Minneapolis did
not conduct sufficient testing to confirm that BankFirst‟s underwriting and CRE lending controls
were adequate to support that bank‟s rapid loan growth. The Director stated that, in hindsight, an
earlier supervisory action compelling management to address identified deficiencies may have
reduced the loss to the DIF, and noted that FRB Minneapolis made a number of changes to its
supervision program during 2008 and 2009 in response to what was learned from BankFirst‟s
failure.




                                               25
APPENDIXES
APPENDIX 1 – Glossary of Banking and Regulatory Terms

Allowance for Loan and Lease Losses (ALLL)
The ALLL is a valuation reserve established and maintained by charges against the financial
institution‟s operating income. As a valuation reserve, it is an estimate of uncollectible amounts
that is used to reduce the book value of loans and leases to the amount that is expected to be
collected. These valuation allowances are established to absorb unidentified losses inherent in
the institution‟s overall loan and lease portfolio.

Classified Assets
Classified assets are loans that exhibit well-defined weaknesses and a distinct possibility of loss.
The term “classified” is divided into more specific subcategories ranging from least to most
severe: “substandard,” “doubtful,” and “loss.” An asset classified as “substandard” is
inadequately protected by the current sound worth and paying capacity of the obligor or of the
collateral pledged, if any. An asset classified as “doubtful” has all the weaknesses inherent in
one classified as “substandard,” with the added characteristic that the weaknesses make full
collection or liquidation highly questionable and improbable. Assets classified as “loss” are
considered uncollectible and of such little value that their continuance as bankable assets is not
warranted.

Commercial Real Estate (CRE)
CRE loans are land development and construction loans (including one to four family residential
and commercial construction loans) and other land loans. CRE loans also include loans secured
by multifamily property and nonfarm, nonresidential property where the primary source of
repayment is primarily derived from rental income associated with the property or the proceeds
of the sale, refinancing, or permanent financing of the property.

Concentration
A concentration is a significantly large volume of economically related assets that an institution
has advanced or committed to a certain industry, person, entity, or affiliated group. These assets
may, in the aggregate, present a substantial risk to the safety and soundness of the institution.

Enforcement Actions
The Federal Reserve Board has a broad range of enforcement powers that include formal or
informal enforcement actions that may be taken, typically after the completion of an on-site bank
examination. Formal enforcement actions consist of Cease-and-Desist Orders and Written
Agreements, while informal enforcement actions include commitments, Board Resolutions, and
Memoranda of Understanding.

Interest Reserves
Interest reserves are accounts set up by lenders to periodically advance loan funds to pay interest
charges on the outstanding balance of an acquisition, development, and construction loan. The
interest is capitalized and added to the loan balance. This practice can mask loans that would
otherwise be reported as delinquent and erode collateral protection, increasing a lender‟s
exposure to credit losses.



                                                 29
APPENDIX 1 (continued)
Limited Purpose Bank
Under the Community Reinvestment Act, a bank may apply to its primary federal regulator to be
designated a limited purpose bank. A limited purpose bank is a financial institution that offers
only a narrow product line (such as credit card or motor vehicle loans) to a regional or broader
market.

Liquidity
Liquidity is the ability to accommodate decreases in liabilities and to fund increases in assets. A
bank has adequate liquidity when it can obtain sufficient funds, either by increasing liabilities or
converting assets, promptly and at a reasonable cost.

Nonperforming Loans
Nonperforming loans are the sum of total loans and lease financing receivables past due 90 or
more days and still accruing interest and total nonaccrual loans and lease financing receivables.

Prompt Corrective Action (PCA)
PCA is a framework of supervisory actions, set forth in 12 U.S.C. 1831o, for insured depository
institutions whose capital position has declined below certain threshold levels. It was intended to
ensure that action is taken when an institution becomes financially troubled, in order to resolve
the problems of the institution at the least possible long-term loss to the DIF. The capital
categories are well capitalized, adequately capitalized, undercapitalized, significantly
undercapitalized, and critically undercapitalized.

Stored Value Cards
The term “stored value” is associated with products for which prefunded value is recorded on the
payment instrument. The term “prepaid” is associated with products for which the prefunded
value is recorded on a remote database, which must be accessed for payment authorization.
There are a variety of applications for prepaid cards, including gift cards, payroll cards, flexible
spending account cards, government benefit cards (such as food stamps), insurance claim cards,
employee reward cards, travel cards, remittance payment cards, and transportation cards. Most
prepaid cards serve a single purpose, but there are a few cases in which multiple prepaid
functions are combined on one card.

Syndicating Loans
Syndicating loans refers to collaboration among lenders to share in a loan or a package of loans.

Uniform Bank Performance Report (UBPR)
The UBPR is an individual analysis of a financial institution‟s financial data and ratios that
includes extensive comparisons to peer group performance. The report is produced by the
Federal Financial Institutions Examination Council based on quarterly data provided by banks
and is for the use of banking supervisors, bankers, and the general public.




                                                 30
APPENDIX 1 (continued)
Underwriting
Underwriting is part of a bank‟s lending policies and procedures that enable the bank‟s lending
staff to evaluate all relevant credit factors. These factors include the capacity of the borrower or
income from the underlying property to adequately service the debt; the market value of the
underlying real estate collateral; the overall creditworthiness of the borrower; the level of the
borrower‟s equity invested in the property; any secondary sources of repayment; and any
additional collateral or credit enhancements, such as guarantees, mortgage insurance, or takeout
commitments.

Written Agreement
A Written Agreement is a formal, legally enforceable, and publicly available action to correct
practices that are believed to be unlawful, unsafe, or unsound. All Written Agreements must be
approved by the Board‟s Director of the Division of Banking Supervision and Regulation and
General Counsel.




                                                 31
APPENDIX 2 – CAMELS Rating System

Under the current supervisory guidance, each institution is assigned a composite rating based on
an evaluation and rating of six essential components of the institution‟s financial condition and
operations. These component factors address the adequacy of capital, the quality of assets, the
capability of management, the quality and level of earnings, the adequacy of liquidity, and the
sensitivity to market risk (CAMELS). Evaluations of the components take into consideration the
institution‟s size and sophistication, the nature and complexity of its activities, and its risk
profile.

Composite and component ratings are assigned based on a 1 to 5 numerical scale. A 1 indicates
the highest rating, strongest performance and risk management practices, and least degree of
supervisory concern, while a 5 indicates the lowest rating, weakest performance, inadequate risk
management practices, and the highest degree of supervisory concern.

Composite Rating Definition

The five composite ratings are defined and distinguished below. Composite ratings are based on
a careful evaluation of an institution‟s managerial, operational, financial, and compliance
performance.

Composite 1

Financial institutions in this group are sound in every respect and generally have components
rated 1 or 2. Any weaknesses are minor and can be handled in a routine manner by the Board of
Directors and management. These financial institutions are the most capable of withstanding the
vagaries of business conditions and are resistant to outside influences, such as economic
instability in their trade area. These financial institutions are in substantial compliance with laws
and regulations. As a result, these financial institutions exhibit the strongest performance and
risk management practices relative to the institutions‟ size, complexity, and risk profile and give
no cause for supervisory concern.

Composite 2

Financial institutions in this group are fundamentally sound. For financial institutions to receive
this rating, generally no component rating should be more severe than 3. Only moderate
weaknesses are present and are well within the Board of Directors‟ and management‟s
capabilities and willingness to correct. These financial institutions are stable and are capable of
withstanding business fluctuations. These financial institutions are in substantial compliance
with laws and regulations. Overall risk management practices are satisfactory relative to the
institutions‟ size, complexity, and risk profile. There are no material supervisory concerns; and,
as a result, the supervisory response is informal and limited.




                                                 33
APPENDIX 2 (continued)
Composite 3

Financial institutions in this group exhibit some degree of supervisory concern in one or more of
the component areas. These financial institutions exhibit a combination of weaknesses that may
range from moderate to severe; however, the magnitude of the deficiencies generally will not
cause a component to be rated more severely than 4. Management may lack the ability or
willingness to effectively address weaknesses within appropriate time frames. Financial
institutions in this group generally are less capable of withstanding business fluctuations and are
more vulnerable to outside influences than those institutions rated a composite 1 or 2.
Additionally, these financial institutions may be in significant noncompliance with laws and
regulations. Risk management practices may be less than satisfactory relative to the institutions‟
size, complexity, and risk profile. These financial institutions require more than normal
supervision, which may include formal or informal enforcement actions. Failure appears
unlikely, however, given the overall strength and financial capacity of these institutions.

Composite 4

Financial institutions in this group generally exhibit unsafe and unsound practices or conditions.
There are serious financial or managerial deficiencies that result in unsatisfactory performance.
The problems range from severe to critically deficient. The weaknesses and problems are not
being satisfactorily addressed or resolved by the Board of Directors and management. Financial
institutions in this group generally are not capable of withstanding business fluctuations. There
may be significant noncompliance with laws and regulations. Risk management practices are
generally unacceptable relative to the institutions‟ size, complexity, and risk profile. Close
supervisory attention is required, which means, in most cases, formal enforcement action is
necessary to address the problems. Institutions in this group pose a risk to the DIF. Failure is a
distinct possibility if the problems and weaknesses are not satisfactorily addressed and resolved.

Composite 5

Financial institutions in this group exhibit extremely unsafe and unsound practices or conditions;
exhibit a critically deficient performance; often contain inadequate risk management practices
relative to the institutions‟ size, complexity, and risk profile; and are of the greatest supervisory
concern. The volume and severity of problems are beyond management‟s ability or willingness
to control or correct. Immediate outside financial or other assistance is needed in order for the
financial institutions to be viable. Ongoing supervisory attention is necessary. Institutions in
this group pose a significant risk to the DIF, and failure is highly probable.




                                                 34
APPENDIX 3 – Division Director’s Comments
                     BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                             DIVISION OF BANKING SUPERVISION AND REGULATION


Date:      February 18, 2010
To:        Elizabeth A. Coleman, Inspector General
From:      Patrick M. Parkinson, Director /signed/
Subject:   Draft "Material Loss Review of BankFirst"



        The staff of the Division of Banking Supervision and Regulation has reviewed the draft
Material Loss Review of BankFirst, Sioux Falls, South Dakota, that was prepared by the Office
of Inspector General (IG) in accordance with section 38(k) of the Federal Deposit Insurance Act.
The report notes that BankFirst failed because its Board of Directors and management did not
establish a corporate governance and oversight framework to control the risks associated with the
bank's aggressive loan growth and high concentration in CRE loans. The lack of effective credit
risk management controls resulted in a large volume of poorly underwritten CRE loans that were
originated nationwide within an eighteen-month period. The bank was supervised by the Federal
Reserve Bank of Minneapolis (FRB Minneapolis) under delegated authority from the Board.

        We concur with the conclusions and lessons learned contained in the report. FRB
Minneapolis did not conduct sufficient testing to confirm that the bank's underwriting and CRE
lending controls were adequate to support the bank's rapid loan growth in 2005 and 2006. It was
not until early 2007 that examiners uncovered the full extent of BankFirst' s credit risk
management weaknesses, including a compensation program that rewarded making loans but
lacked incentives to ensure that the loans were safe and sound. However, by early 2007, future
losses were already embedded in the portfolio. Moreover, in hindsight, this Division concurs
that an earlier supervisory action compelling management to address identified deficiencies may
have reduced the loss to the Deposit Insurance Fund. The report highlights important lessons
learned, including (l) the critical need for heightened supervisory attention and testing of
underwriting and lending controls when a bank implements a business strategy featuring growth
in high risk lending outside of the institution's traditional market area; and (2) the need for
immediate, aggressive, and forceful supervisory action when corporate governance deficiencies
are identified. In response to the lessons learned from BankFirst, FRB Minneapolis made a
number of changes to its supervision program during 2008 and 2009.

       Board staff very much appreciates the opportunity to comment on the IG report and
welcomes the report's observations and contribution to understanding the reasons for the failure
of Bank First. The events described in the report highlight the critical importance that
supervisors' detect and address serious issues sufficiently early that risks to a bank's viability can
be controlled.




                                                  35
APPENDIX 4 – Principal Contributors to this Report
John F. Ayers III, Project Leader and Senior Auditor
Jennifer A. Rosholt-High, Auditor
Jina Hwang, Senior Attorney
Kimberly A. Whitten, Project Manager
Timothy P. Rogers, Team Leader for Material Loss Reviews and Senior Auditor
Anthony J. Castaldo, Assistant Inspector General for Inspections and Evaluations




                                              37
